No.

 

IN THE
Supreme Court of the United States

FRANCISCO FELIX,
Petitioner
v.

UNITED STATES,
Respondent

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5, I certify that copies of the Motion to
Proceed in Forma Pauperis have been served on all parties by first class mail or in

person:

Elizabeth Prelogar

ACTING SOLICITOR GENERAL

U.S. DEPARTMENT OF JUSTICE Room 5616
950 Pennsylvania Avenue, NW

Washington, DC 20580-0001

202-514-2217

supremectbriefs@usdoj.gov

Counsel for Petitioner
I declare under penalty of perjury that the foregoing is true and correct.

=>

Date: June 1, 2021
ELLIS M. JOHNSTON III
